                      Performance Audit Report




The Small Business Administration s Improper Payment Rate for 7(a)Guaranty
              Purchases Remains Significantly Underestimated


                         For Official Use Only
                                U.S. Washington,
                                         Business
                                      Small
                                     Office of
                                                D.C.
                                           Inspector   Administration
                                                     General
                                                          20416
                                                                             R EPORT T RANSMITTAL   13-07
D ATE:           November 15,2012
T O:
S UBJECT:
                     A.A.
                 Jeanne    Hulit,Associate Administrator,Office of Capital Access
                 John Miller,Director,Office of Financial Program Operations
                 The Small Business Administration s Improper Payment Rate for 7(a)Guaranty Purchases
                 Remains  Significantly Underestimated
This report presents the results of our audit of the Small Business Administration s (SBA)Improper
Payment   Rate for 7(a)Guaranty Purchases for Fiscal Year 2011. Our objective was to determine
whether SBA accurately estimated its FY 2011Improper Payment Rate for 7(a)Loan Program purchases.
We conducted this audit in accordance with Generally Accepted Government Auditing Standards. Those
standards  require that we plan and perform the audit to obtain sufficient,appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
We request that you provide your management decision for each recommendation on the attached SBA
form  1824, Recommendation     Action Sheet,by December 15,2012. Your decision should identify the
specific actions taken or planned for each recommendation and the target dates for completion.
We appreciate the courtesies and cooperation of the SBA extended to the staff during this audit. Please
487-9 40.
direct any questions to me at (202)205-6587    or Terry Settle,Director,Credit Programs Group at (703)
                                                 ***
/s/
         K.
John Needham
Assistant Inspector General for Auditing
What OIG Audited                                                    This occurred because improper payment reviewers were
The SBA is authorized under Section 7(a) of the Small               unfamiliar with or misinterpreted Agency policies,or did not
Business
businesses Act to provide financial assistance to small
              in the form of Government-guaranteed        loans.    have adequate time to conduct            reviews. 1.73
                                                                                                                    As a result, the
                                                                    SBA reported an improper payment rate of percent or
When a loan goes into default and the lender requests
          payment,
guaranty the            the SBA reviews loan documentation to
                                                                    $40.7  million in its FY 2011 Agency Financial Report, when
                                                                    the rate could have been as high as 20 percent, or about
evaluate        lender’s    compliance with program rules and       $472 million. In addition,the Congress and the public were
regulations.   Each year, the SBA is required to estimate the       misinformed of the level of improper payments made for
amount of improper 7(a)guaranty purchases. We audited
the improper payment review process that the Agency used
                                                                    7(a) guaranty purchases. Furthermore, when the SBA did
                                                                    not  identify improperly paid 7(a) guaranty purchases, it
                            2011 improper payment rate on
     estimateloansitstoFYdetermine
topurchased                                                         missed   the opportunity to identify the related root causes
                                     the accuracy of the Agency s   and implement    the necessary corrective actions.
estimate.
guaranty    Specifically,
          purchases         re-performed $8.9
                            we                 SBA s review of 30
                         totaling approximately million from        SBA Response
the Agency s sample of 303 guaranty purchases totaling              The SBA agreed with eight of the twelve recommendations.
$129.5  million. All of these purchases were made between
April 1,2010 and March 31,2011,the period that the SBA
                                                                    The SBA did not agree with the OIG s estimation of the
                                                                    improper   payment   rate or that it had misinformed the
used to perform its improper payment review for FY 2011.
SBA s 7(a)purchases totaled approximately $2.36 billion for
                                                                    Congress   and the public. SBA s response stated that the
                                                                    OIG s results were incorrect because they were based on
FY 2011.                                                            invalid and inconclusive statistical results. Additionally,the
                                                                    SBA stated that the OIG ignored the Agency s stewardship
ActionsonTaken                                                      over taxpayer dollars.
Agency hasa previous
Based        agreed toOIG(1)report
                            reemphasize   in March 2012,the
                                   issued key loan review           OIG Comments
requirements,   (2)provide credit analysis training to
reviewers,(3)provide quality control feedback to reviewers,         With the assistance of our statistician,we reexamined our
                                                                    statistical results and reaffirmed that our initial conclusions
(4)enhance the identification of root causes of improper
payments,methodology
consistent  and (5)work with
                           for   the OIG to agree upon a
                               determining the estimated
improper payment rate for the next reporting period.
                                                                                         valid.   V.
                                                                    were statistically The results of this review are
                                                                    provided in Appendix We determined that SBA s
                                                                    statistician made methodological and conceptual errors that
                                                                    led to a flawed SBA     response.    SBA s statistician (1)did not
                                                                    account   for  the complex sample design,and (2)assumed
OIG Recommendations                                                 that the deficiencies identified by the OIG existed
We made 12recommendations to the SBA,which included:                exclusively             OIG s subsample of 30loans,and nowhere
                                                                    else in SBA ins fullthesample
                                                                             a owould
                                                                                n e - i n - 1 . 7 2 - m i l i o n loans.
                                                                                                   of 303 It is extremely
          Create a more comprehensive improper payment
          detection checklist and monitor its effectiveness.
                                                                    unlikely
                                                                    deficiencies only in the          exist       chance
                                                                                                              that the
                                                                                                                      subsample. As a result,
          Provide training to the three centers responsible
          for conducting improper payment reviews.
                                                                    we continue tosupport our conclusion
                                                                    underestimated its improper payment that SBA significantly
                                                                                                                   rate.
          Determine   the appropriate amount of time needed         With regard to the Agency s stewardship over taxpayer
          for loan
          payments.reviews   to better identify erroneous           dollars, this audit focused on only one aspect of SBA s
          Confirm recovery for twoloans.                            responsibilities identifying improper payments. We agree
          Seek recovery for four loans.                             that the purchase rate in comparison to the total
                                                                    outstanding   7(a)loan portfolio has recently declined.
What OIG Found
The SBA did not detect all improper payments when
                                                                    However,   on  a dollar basis,the amount of purchases has
                                                                    significantly increased since 2007,while the amount of
                                                                    denials and repairs decreased. Specifically,in 2007,the
conducting
From  a the
million,
             improper payment reviews to estimate its FY
2011 improper payment rate for 7(a) guaranty purchases.
         sample   of 30 loan purchases totaling nearly $8.9
              SBA did not detect that 6 loans purchased for
                                                                    and                    0.5 1.3
                                                                    denial and repair rate was percent of total purchases
                                                                         in 2011,it was percent. This decrease in the rate of
                                                                    denials and repairs supports our concern that SBA may not
approximately $1.8 million were improper payments.                  be identifying all improper payments.
          .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
Table of Contents
Introduction
Objective,Scope and Methodology
                                                                                               5
                                                                                               6
Background
                             . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .
Nature of Limited or Omitted Information
Review of Internal Controls
                                                                                               7
                                                                                               9
                                                                                               9

     Invalid Credit Model Used for Two Loans     . ............................... . . . . .
  Finding: The SBA Underestimated Its FY 2011 Improper Payment Rate for 7(a)Guaranty Purchases 9
     Deficient Repayment Ability and Equity Injection Determinations Made on Two Loans        10
                                                                                              11
     Business Plan Not Obtained from Borrower for One Loan                                    12
                                                                                                   .  .  .
               . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . .
     IRS Verification Not Performed for One Loan
     FY 2011Improper Payment Rate Underestimated by more than $432million.
     Conclusion
                                                                                              12
                                                                                              13
                                                                                              14
                                                                                                            .  .
  Other Matter
  Recommendations
  Agency Comments and Office of Inspector General
Appendix I: Scope and
                                                           R e s p o n s e . . . . . . . .  . 14
                                                                                                .  .  .   .
                        Method logy. . . .. .. .. .. .. .. .. .. .. ... .. . .. .. ... .. .. .. .. .. .. .. .
                                                                                              15
                                                                                              17
                                                                                              25
                                                                                                             .  .
Appendix IV: Management       Com ents. . . . . . . . .. .. .. .. .. .. ... .. .. .. .. .. .. .. .. .. ..
Appendix II: Statistical Approach,Sampling Methodology and Projections
Appendix III: Sample of Purchased Loans
Appendix V:OIG Statistician Response to SBA Comments
                                                                                              27
                                                                                              29
                                                                                              31
                                                                                              40
            Introduction
             This report presents the results of our audit of the SBA Fiscal Year (FY)2011improper payment
             rate  for 7(a)thatguaranty  purchases    of defaulted loans. The audit report focuses on improper
             payments             occurred   during the purchase process and not the loan approval process. The
             objective of our audit was to determine whether the Agency accurately estimated and reported
            its annual improper payment rate to the Office of Management and Budget(OMB).
                 2009,thePayment
             InImproper      SBA Office of Inspector General (OIG)issued        a report on the SBA s FY 2008
                                      Rate for 7(a)Guaranty Purchases.1 In the report,the OIG made several
             recommendations
             requirements             to mitigate the risk of future improper payments and noncompliance with
                                 prescribed by the OMB. One recommendation for the Agency to delegate final
             approval    of guaranty purchase and improper payment disputes to the Office of Credit Risk
             Management remains open.
             The initial results of our current audit were used in a report recently issued by the OIG. In that
             report,
             Payments  the OIG assessed the Agency s compliance with provisions required by the Improper
                          Elimination and Recovery Act (IPERA)for several2 programs,including the 7(a)
             Guaranty     Loan    Program,   and  SBA procurement activities. For the IPERA Report,the OIG
                            limited testing and examined the SBA s overall efforts to prevent and reduce
             performedpayments.
             improper                    The IPERA report contained a key finding that the SBA underestimated its
             improper     payment     rate  for  FY 2011 7(a)guaranty purchases by not properly weighing the OIG s
             results.   This finding was based on preliminary results from our current audit. It was further
             reported    in the IPERA report that if the SBA had used the OIG statistician s approach to properly
             weigh the five OIG-identified erroneous payments,which the Agency agreed were improper,the
             SBA should have reported an improper payment rate as high as 9.86 percent. The SBA reported
                rate of 1.73
            afollowing          percent   in its FY 2011 Agency Financial Report. The IPERA report made the
                          recommendationsfor 7(a)guaranty purchases:
                       earlyloan
                  Require
                  onDetermine       officers to thoroughly evaluate creditworthiness(includingrepayment ability)
                             defaulted loans during both guaranty purchase and improper payment reviews;
                                  and  report  an  accurate and statistically valid estimate of improper 7(a)default
                  purchases for FY 2012in the next Agency Financial Report;
                  Conduct a detailed and objective cost/benefit analysis for payment recapture audits of 7(a)
                  purchases upon revising the improper payment rate projection for 7(a)purchases;and
                  Revise    the corrective action plan to identify all root causes of improper payments and
                  appropriate actions for reduction upon revising the improper payment rate projection for
                  7(a)purchases.
             Although the IPERA report addressed payments made in several SBA programs and SBA
             procurement
            function.     In    activities,the report was not intended to provide a detailed assessment of each
                             this report,we present a more detailed assessment of the SBA s efforts to estimate
             the rate of improper payments for its 7(a)guaranty purchases made in FY 2011. The Agency
1 OIG Report
    2009.
2 OIG Report
               91-21-61,0,
                        The Small Business Administration s Fiscal Year 2008Improper Payment Rate for the 7(a)Guaranty Loan Program,July 10,
                         SBA Generally Meets IPERA Reporting Guidance but Immediate Attention is Needed to Prevent and Reduce Improper
    Payments,March 15,2012.
                                                                         5
requested     that we perform this audit concurrently with its improper payment reviews of 7(a)
guaranty
ensure      purchases.   The Agency suggested that the reviews be completed simultaneously to
          that the OIG s results and feedback could be considered before the SBA reported its FY
seven    improper   payments        OMB.
2011improper payment rate to the In this report,we provide details concerning the
                              that we identified during our review. Of the seven,one improper
payment     was detected
      OIG-identified
siximproper          improper                    OIG.
                           by both the SBA and the The Agency agreed that five of the other
                                payments were valid. The SBA did not agree the one remaining
             payment   identified by the OIG was valid. For the reasons presented below,we
continue    to believe it was an improper payment and therefore,we have included it in our
                                                rate.
projection of the estimated improper payment Additionally,in this report we explain the
impact of the improper payments that the SBA did not identify and suggest improvementsfor
the Agency s improper payment review process.
The SBA s Office of the Chief Financial Officer,with support from the Office of Financial Program
Operations,
purchases.     publishes the Agency s estimated rate of improper payments for 7(a)guaranty
               This estimate is based on an annual review of a sample of guaranty purchases. The
FY 2011improper payment reviews were performed by SBA review teamslocated at the
National Guaranty Purchase Center,the Fresno Commercial Loan Servicing Center,and the Little
Rock Commercial Loan Servicing Center. The Agency teams at the centers performed these
reviews    to determine if improper payments occurred when the Agency paid lenders to honor its
guaranties.    These teamsreviewed a sample of 303loans totaling $129.5 million,of the 7(a)loan
guaranties purchased between April 1,2010 and March 31,2011,which numbered 28,237and
totaled approximately $2.36 billion.
Objective,Scope and Methodology
Our objective was to determine whether the SBA accurately estimated its FY 2011 improper
payment   rate for 7(a)guaranty purchases. To answer our objective,we obtained the Agency s
universe of 28,237 purchases totaling approximately $2.36 billion made between April 1,2010
and
$8.9March   31,2011. We statistically selected a sample of 30guaranty purchases totaling nearly
     million from the SBA s sample of 303purchases totaling $129.5 million. Using a standard
OIG review methodology that we prepared based on applicable standard operating procedures,
weduringassessed whether the Agency s reviewers identified all improper payments made by the SBA
           the guaranty purchase process. During the audit,we interviewed five reviewers and two
supervisory
Centers,     andreviewers  from the Fresno,CA,and Little Rock,AR,Commercial Loan Servicing
                                                                  VA.
                 the National Guaranty Purchase Center in Herndon, These reviewers were
responsible for evaluating the loans identified in our audit. Based on our review results with the
assistance    of a statistician,we developed an estimate of improper payments for the SBA s 7(a)
guaranty     purchases   made  in FY 2011. We met with the Agency on several occasions to reconcile
                                       I.
improper payments identified by the OIG but not identified by the SBA. Our scope and
                       I.
methodology is explained in Appendix Our statistical approach and sampling methodology is
explained in Appendix A listing of the sampled purchases is detailed in Appendix     I I.
                                            6
          We conducted our fieldwork in Atlanta,GA,Washington,DC,and Herndon,VA between July
          2011 and June 2012,in accordance with Generally Accepted Government Auditing       Standards.
          Those standards require that we plan and perform the audit to obtain sufficient,appropriate
          evidence  to provide a reasonable basis for our findings and conclusions based on our audit
          objectives.
          and         We believe that the evidence obtained provides a reasonable basis for our findings
              conclusions based on our audit objective. Staff turnover and limited resources created
          delays in completing fieldwork and issuing this audit report.
          Background
          The SBA is authorized under Section 7(a)of the Small Business Act to provide financial assistance
          to small businesses in the form of Government-guaranteed The SBA’s 7(a)loans are
          made by participating                                                            loans.
                                   lenders under an agreement to originate,service,and liquidate loans in
          accordance   with SBA’s rules and regulations and prudent lending standards. The SBA is released
          from liability on its guaranty,in whole or in part,if the lender fails to comply materially with any
          SBA loan program requirement or does not make,close,service or liquidate the loan in a
          prudent manner.
          When a loan goes into default and the lender requests guaranty payment,the SBA reviews loan
          documentation     to evaluate the lender’s compliance with program rules and regulations. The
          SBA reviews the lender’s actions on the loan to determine if the lender made,closed,serviced,
          and liquidatedandthe loan in a commercially reasonable manner that was consistent with SBA
          requirements         prudent lending practices. Based on this review,the SBA determines whether
          it is appropriate to accept liability for payment of the guaranty (whichthe SBA refers to as a
          guaranty
          lender      purchase").  The purchase review process is the SBA’s primary control for ensuring
                   compliance and preventing improper payments. In the event of noncompliance,the SBA
          may    be released from its liability on a loan guaranty,in full or in part. Since FY 2008,the SBA
          has paid more than $8billion to 7(a)lenders to purchase its guaranteed share of defaulted
          loans. In FY 2011,theSBA paid approximately $2.36billion to honor its guaranties.3
                    Table 1 SBA 7(a)Loan Guaranty Purchases
                       Year-End March
                                  2007
                                             314         SBA 7(a)Loan Guaranty Purchases
                                                                  $629,806,162
                                  2008                            $874,699,335
                                  2009
                                  2010
                                                                  $1,832,138,702
                                                                  $2,388,255,032
                                  2011
                                  Total
                                                                  $2,366,631,473
                                                                  $8,091,530,707
                     Source 1 Generated by SBA s Office of Financial Program Operations
3 For purposes  of this audit,we used the FY 2011 universe of purchases totaling approximately $2.36 billion. As described in Appendix I,this
  universe total was provided by the Agency and was tested for completeness and accuracy during the audit. The amounts presented in Table 1
                      the Office of Financial Program Operations and were not tested for accuracy and completeness. While there are slight
  were providedthebyfigures
  differences,
4 Annual period is April 1 presented   in the table are for background information only and are not material to our audit results.
                            through March 31,the period SBA uses when estimating its improper payment reviews for 7(a)guaranty purchases.
                                                                      7
            According to SBA procedures that were in effect from April 20,2005 to November 14,2010,5 an
            early default is a default or business failure that occurs prior to final disbursement of the loan,
            or within 18months from the date of final disbursement. A default includes an unremedied
            failure to make one or more payments required by the terms of the note,as well as events that
            would place a loan in liquidation status. An early problem loan is indicated when either prior to
            final disbursement or within the first 18months after final disbursement,a borrower has a
            pattern of late payments. Monthly payments funded through the sale of collateral,or a lender s
            deferral of two or more consecutive scheduled payments are also indicators of an6early problem
            loan.
            early
                    Revisions to SBA procedures,that became effective on November 15,2010, define an
                   default as a default that occurs within 18months of the initial disbursement of the
            proceeds   from  an          loan.
                                 SBA If the final loan disbursement occurs more than six months after
            the initial disbursement,the early default time frame is extended to 18months after the final
            disbursement.
            For early-defaulted and early problem loans,the SBA must review thelender’s purchase package
            with the highest degree of scrutiny." Additionally,the recommending official7 must determine
            whether the lender’s failure to make or close the loan in accordance with SBA requirements or
            prudent lending practices allowed or contributed to the early default. If the SBA purchase
            review  indicates that the lender’s actions or omissions resulted in a material loss to the SBA,
            repair or denial of the guaranty is appropriate. If there was an early default,the lender s failure
            to verify and properly document a required equity injection by the borrower raises a rebuttable
            presumption    that8 the default was caused by the lack of the injection and a full denial of liability
            may be justified.
            Congress   enacted the Improper Payment Information Act (IPIA)on November 26,2002.
                       A-123
            This legislation,in conjunction with implementing guidance from Appendix C of OMB
            Circular (Circular)requires executive branch agency heads to review their programs and
            activities annually and identify those that may be susceptible to significant improper payments.
            The guidance also requires these agency heads to estimate amounts improperly paid,and report
            on the amounts    of improper payments and actions to reduce them. Furthermore,the Circular
            requires
            IPIA.     Inspectors   General to review agencies performance to determine compliance with
            For FY 2008,the SBA reported an improper payment rate of 0.53 percent for 7(a)guaranty
            purchases.   In its audit of the FY 2008improper payment estimate,the OIG determined that the
            Agency s improper payment rate should have been 27percent for that year.9 During the audit
            fol ow-up   process,  the Agency concurred with many of the OIG s improper payment findings.
            On September 21,2011,the SBA responded to a congressional inquiry concerning the
            differences between the SBA and the OIG reported improper payment rates for FY 2008. In its
            response,   the SBA stated, if the IG’s judgmental approach is applied to its
            7(a)guaranty purchase improper payment rate in that sample was 21 percent.
                                                                                                          30-loan
                                                                                                    sample,   the
5
6
    SBA Standard Operating Procedures(SOP)5051
                 3,
    SBA SOP 5051 page 16
                                                 2(b).
                                                         3,                                              review.
7
8
9             9-16,
    The term recommending official as used in SOP 5051 refers to the loan specialist performing the purchase
                 3,
    SBA SOP 5051 page 16and page 162
    OIG Report The Small Business Administration s Fiscal Year 2008 Improper Payment Rate for the 7(a)Guaranty Loan Program,July 10,
    2009.
                                                                   8
                                                         3.81
             The SBA reported improper payment rates of percent for FY 2009and percent for
                2010.
             FY Most recently,in the FY 2011 Agency Financial Report,the SBA estimated its improper
                                                                                                                1.87
             program outlays for purchases of approximately1.73
             payment rate for 7(a)guaranty purchases to be percent,or $40.7 million,of the FY 2011
                                                            $2.36billion.
             Nature of Limited or Omitted Information
             We identified twoinstances of suspicious activity that we referred to our Investigations Division
             for further review,the details of which have not been included in this report.
             Review of Internal Controls
             The SBA s Standard Operating Procedure (SOP)for internal control systems10 provides guidance
             onOMBtheguidance.                         A - 1 2 3 ,
                      implementation and maintenance of effective systems of internal control as required by
                               According to OMB Circular effective systems of internal control improve
             the accountability and effectiveness of Federal programs and operations by establishing,
             assessing,correcting,and reporting on internal controls.
             We identified internal control weaknesses in the Agency s improper payment review process for
             7(a)guaranty purchases. Specifically,the SBA did not always detect when improper payments
             were made duringthetherateguaranty
             underestimated                     purchase process. As a result,the Agency significantly
                                         of improper payments reported to the                    OMB.
             Implementing the recommendations in this report will address the identified internal control
             weaknesses,and improve the improper payment review process. We will provide a copy of the
             final report to the senior official responsible for internal controls in the Office of the Chief
             Financial Officer.
              Finding: The SBA Underestimated Its FY 2011 Improper Payment Rate for 7(a)
              Guaranty Purchases
             The SBA did not detect all improper payments when conducting improper payment reviews to
             estimate  its FY 2011 improper payment rate for 7(a)guaranty purchases. From a sample    of 30
             loans, comprised of 29unique transactions that totaled approximately $8.9 million, the SBA
                                                                                                11
             did not detect that 6 loans purchased for approximately $1.8 million were improper payments.
             This occurred because improper payment reviewers responsible for reviewing the six purchases
             were unfamiliar
             conduct           with or misinterpreted Agency policies,or did not have adequate time to
                      their reviews. As a result,the SBA reported an improper payment rate of percent                    1.73
             or $40.7million in its FY 2011 Agency Financial Report,when the rate could have been as high as
10   SOP 0002,Internal Control
11 The
                                 Systems.
        sample of 30loans was comprised of 29unique transactions because the statistician used a sample design that allowed loans to be
     sampled more than  once.
                                                                      9
          20percent,or about $472
          methodology,and projections. million. See Appendix II for our statistical approach,sampling
          According to the Circular,on an annual basis,for programs and activities that are susceptible to
          significant improper payments,agencies are required to obtain a statistically valid estimate of
          the amount of improper payments. Further,agencies must ensure that their sampling
          methodologies are approved by OMB prior to conducting their sampling measurement,after
          consulting with a statistician to ensure the validity of their sample design,sample size,and
          measurement
          improper        methodology.
                     payment   rate       In addition,agencies should also incorporate refinements to their
                                    methodologies based on recommendations from agency staff or
          auditors(suchas their agency Inspector General,the Government Accountability Office,or
          private auditors).
          According to the Circular,an improper payment for a guaranteed loan program may include
          disbursements    to intermediaries;third parties for defaults,delinquencies,interest and other
          subsidies;or other payments based on incomplete,inaccurate,or fraudulent information.
          They may also include duplicate disbursements,or any disbursements that do not comply with
          law, program regulations,or agency policies.
          Furthermore,   SBA policy specifies that lenders must originate,close,service,and liquidate 7(a)
          loans in accordance with the SBA s rules and regulations including SBA standard operating
          procedures.
          not           However,for six loansin a sample of 30,SBA s improper payment reviewers did
              detect that lenders failed to meet Agency requirements as detailed in the following
          examples.
          Deficient Repayment Ability and Equity Injection Determinations Made on Two Loans
          For
          Agency
                   loan,a reviewer
              oneerroneously         at the National Guaranty Purchase Center did not detect that the
                                paid $1,016,116 to a lender that did not12 comply with Agency policy when
          approving the $1,500,000Preferred Lender Program (PLP) loan. Specifically,the lender:
                   Determined repayment ability was sufficient even though the borrower had
                   unsupportedAgency
                  coverage.      and unrealistic  revenue projections and no historical debt service
                                       policy states that borrower projections must be based on reasonable
                   assumptions   and  no loan can  be guaranteed13by the SBA unless there is a reasonable
                   assurance of repayment in a timely manner.
                   Determined required equity injection was sufficient although there was no evidence
                  that the injection was made. The lender claimed that equity injection consisted of
                  inventory   purchases.  However,    the purchases were not made with injected funds.
                   According to Agency policy,lenders must verify injections prior to disbursing loan
                   proceeds  and maintain evidence of such verification in their loan files. The policy
                  further states that lenders are expected to use reasonable and prudent efforts to verify
12 Preferred Lender Program loans are made by lenders using delegated authority and undergo very limited review by the SBA prior to loan
   disbursement.
13 SOP 50105,Chapter 4,page 168
                                                                    10
                    that equity is injected
                     partial/full denial.14
                                              and used as intended,and failure to do so may warrant a repair or
           The loan was an early default15and the Agency should have denied its guaranty based on the
           issues  mentioned    above   according  to the SBA s policy. The reviewer stated that he needed
           additional time to perform a more rigorous review similar to the review methodology used by
           the    OIG.
           For another PLP loan,a supervisory reviewer did not detect that the SBA improperly paid
                                                                 loan.
           $714,444 to honor its guaranty on an early problem This payment should not have been
           made    because   the sources of equity injection were not fully substantiated as required by Agency
           policy. In particular,thelender provided the borrower a $951,000SBA 7(a)loan tofinance the
                                         wash.
           acquisition of an existing car The transaction required an equity injection of $237,900.
           Of that amount,$134,659 could not be sourced.
               addition to multiple deferments requested by the borrower during the first 18months,the
           Inborrower  only made five full payments on the loan and those were made with loan proceeds.
           This early problem made it critical for the Agency to ensure that all of the required equity
           injection was documented and from legitimate      sources.     According to SBA officials,reviewers
                                                                                issue.
           used internal Quality Assurance guidance when reviewing for this Further,these officials
           stated that this guidance was designed to supplement Agency policy in detecting improper
           payments during the review process. However,this internal guidance was not consistent with
           the SOP and resulted in the Agency not identifying the lender s equity injection deficiency for
                  loan.
           this The SOP required equity injection greater than
           $200,000,    whichever                                       one-third   of the loan amount or
                                    is less,to be sourced. Consequently,the lender was required to verify and
           document:     (1)that the cash injection existed,and (2)the source of the cash used for the equity
           injection.   Such verification and documentation     allows for a reasonable presumption
           funds will be used for business purposes. The Quality Assurance guidance,however,states,
                                                         16
                                                                                                       that the
                    If the lender failed to verify the source when required to do so but satisfactorily verified
                    the existence of the cash equity injection (usingour criterion of verification of 95%or
                     more thefrom
                     removed    borrower/lender    funding package)and there is no indication that the cash was
                                      the business prior to default for inappropriate reasons,then the
                     purchase may proceed and no other action is necessary.
           We believe that the equity injection should have been fully sourced in accordance with the
           The supervisory reviewer stated that for some loans,the requirements pertaining to the loan
                                                                                                          SOP.
           may   be overlooked because the type of loan is rarely encountered by staff members.
           The supervisory reviewer also stated that this was a classic example of a loan with conditions
           that were not encountered very    often.
           Invalid Credit Model Used for Two Loans
           For  two of the six loan purchases,reviewers in Fresno and Little Rock did not detect that the
           Agency improperly paid $17,744 to honor its guaranties. The lender disbursed $10,000for each
14
15
16
     SOP 50105(A)
             3,
     SBA SOP 50512(B)page 14-15
     SOP 5051 page 16and page 162
                                                        11
             matrix  had not been statistically validated for predictability
                                                                              loans.
             of these two Community Express17 working capital However,the lender s credit scoring
                                                                              as required by Agency policy.18
             This issue was reported by the OIG in a prior audit. The reviewers stated that they were not
                                                                     19
             familiar with the OIG report that pertains to the lender validating its scoring matrix.
             A supervisory reviewer at the center echoed the same sentiment. Specifically,the supervisory
             reviewer    commented that it was difficult to become familiar with the policies,procedures,and
                                                                                   Rock.
             SOPs due to the variety of loan types serviced by Little The reviewer from Little Rock
             stated that methods for distributing updated policy information did not ensure that staff was
             aware of or familiar with policy changes and updates.
             Business Plan Not Obtained from Borrower for One Loan
             For  another
             improper      loan  purchase, the reviewer in Little Rock did not detect that the Agency made an
                         payment of $3,446. Specifically,the lender made a $15,000Community Express loan
             to a startup business for working capital. The lender did not provide a copy of the applicant s
             business   plan or document the20 rationale in the absence of a formal business plan to the SBA,
                 required by Agency policy. The business plan is an essential document provided by the
             asborrower  to the lender to demonstrate how the loan proceeds will be used and how the
             business   will operate. The plan also shows how the business will generate sufficient revenue to
             ensure
             assistanceadequate  loan repayment.
                          requirement                    reviewer
                                       for a businessTheplan       stated that he was unfamiliar with the technical
                                                             for Community   Express               loans.
             IRS Verification Not Performed for One Loan
             For  another  loan  purchase, the reviewer in Little Rock did not take exception to the SBA s
                                                      did not report the loan as an early default. For this loan,
             payment of $10,626to a lenderthewhorequired
             the lender also did not provide                  credit memorandum and IRS transcripts,as
             required by Agency policy.21 The lender made a $30,000SBAExpress22loan to the borrower for
             working capital. Only after the OIG detected the early default status and informed the SBA of
             the missing documents,did the Agency request the lender to provide the missing information.
             The Agency obtained the credit memorandum from the lender,but23 not the IRS transcripts to
             demonstrate the verification of financial information as required. The reviewer stated that
             the high volume of loans and the limited time allotted for improper payment reviews was the
             cause for not detecting the deficiencies.



17   Under Community Express borrowers receive management and technical assistance arranged and paid for by thelender.The SBA s standard
      75to 85percent loan guaranty is applied,which contrasts with the 50percent guaranty for SBAExpressloans.
18
19
20
21
     SBA Procedural Notice
     SBA Policy Notice
                                         10-19
     SOP 50105(A),Subpart B,Chapter 4,page 175
     SBA Office of Inspector General Report
                     5000-7255000-1013
22   SBAExpress loans are made using streamlined and expedited loan procedures and have a 50percent SBA loan guaranty.
23   SBA SOP 50104,Chapter 6,page 243
                                                                    12
           FY 2011 Improper Payment Rate Underestimated by more than $432million.
                                                       1.73
           The Agency s improper payment rate of percent or $40.7 million was underestimated in its
           FY 2011 Agency Financial Report. The OIG determined that the rate could have been as high as
           20percent or about $472million of the nearly $2.36 billion in purchases.
           When calculating its FY 2011improper payment rate,the SBA did not properly consider the
           such
              0.88      two-tier
           OIG s findings,in that they should have used a methodology24that properly weighed the findings
                 as the approach that the OIG recommended. Initially,the SBA estimated a rate
           of percent,prior to receiving the OIG s audit findings. After obtaining the OIG s preliminary
           findings, the SBA agreed that five of the six improper payments identified by the OIG were valid
           and included them in a revised estimate. The SBA,however,did not use the           two-tiered
           statistical methodology recommended by the OIG when revising its improper payment rate;and
                                                         1.73
           therefore,the SBA understated its rate of percent. Given the internal control weaknesses
           identified,it is reasonable to expect that there were additional improper payments in the
           remaining    purchases that the OIG did not   examine.
                                                                Had the SBA revised its rate using the
           tier approach recommended by the OIG s statistician,based on the five OIG improper payment
           findings that they agreed with,the Agency should have reported a rate as high as percent.9.86
           Had the Agency revised the rate based on all six of the OIG findings,its improper payment rate
                                                                                                         t w o -
           could have been as high as 20 percent. See Appendix II for the OIG s statistical approach,
             sampling methodology,and projections.
             Because      the Agency did not use the proper methodology,the Congress and the public were
              misinformed of the level of improper payments made for 7(a)guaranty purchases and of the
             guaranty               loss.
             potential for financial Furthermore,when the SBA did not identify improperly paid 7(a)
                           purchases,it missed the opportunity to identify the related root causes,and impaired
             its ability to implement the necessary corrective actions to prevent and reduce improper
             payments.        Initiatives aimed at aggressively reducing improper payments and the elimination of
              wasteful
             passage
             Ensuring
             guarantythat
                          of the Improper Payments Elimination and Recovery Act of 2010
                                 erroneous
                           purchases
                                                                                          (P.L.1 1-204).
                           spending is a central policy focus of the Government,as reflected in congressional
                                               disbursements are detected during improper payment reviews for 7(a)
                                        is consistent with this policy.
             Although the Agency did not use the statistical approach that the OIG proposed in FY 2011,it
             has taken steps to improve the improper payment review process. The SBA began drafting a
             revised methodology for sampling 7(a)guaranty purchases to ensure the Agency is better able
                                                                                 rate.
             to determine the precision of the estimated improper payment The revised methodology
             includes a more complete checklist to detect 7(a)loan deficiencies during improper payment
             and guaranty purchase reviews.
             In consideration of the IPERA report recommendations,the SBA stated that it will:
                     re-emphasize           the requirement that loan officers thoroughly review repayment ability
                         and creditworthiness on early default loans,
                         provide credit analysis training,
                         provide quality control feedback to reviewers,
24   See explanation of two-tier approach in Appendix I , Statistical Approach,Sampling Methodology and Projections.
                                                          13
                                   correctiveandaction plan so that it addresses the root causes and amount of
                      enhance thepayments,
                     improper
                      work with the OIG to agree upon a consistent methodology for determining the
                      estimated improper payment rate for the next reporting period.
             The SBA has recovered $14,082for two of the six loans identified as improper payments by the
             OIG during the FY 2011improper payment audit. The OIG is recommending recovery for the
             remaining four loans totaling $1,748,304,which have yet to be resolved. The SBA has not
             initiated recovery for three loan guaranties totaling $732,188. The remaining loan in the
             amount of $1,016,116is still under review by the                 SBA.
             Conclusion
                                                                  1.73
             The Agency s improper payment rate of percent or $40.7 million was understated in its
             FY 2011 Agency Financial Report. The OIG determined that the rate could have been as high as
             20percent or about $472million of the nearly $2.36 billion in purchases. The SBA s improper
             payment review
             checklist,        process can be improved by using a more robust improper payment detection
                        providing training to the reviewers,and allowing for sufficient review time. The
             improper   payment   detection checklist should allow Agency reviewers to more comprehensively
             assess and identify deficiencies.
             Other Matter
             During the audit,we identified four additional improper payments totaling $1,456,588from our
             sample  of 30loans. In each of these loans purchases,we determined that the Agency would
             have been unable to discern whether the payment was proper since the loan files contained
            insufficient documentation.
            Guidance from OMB25states that in cases such as these,the payments must be considered
            improper payments.
            improper   payments thatHowever,     limited cases,this same guidance allows for the exclusion of
                                      have beeninsubsequently   corrected.
            After completion of its improper payment reviews,the SBA obtained additional documentation
            from  the lenders to resolve the deficiencies related to the four improper payments identified by
                  OIG.
            the We are reporting the deficiencies to further illustrate the need for improvementsto
            the Agency s improper payment review process,which we are recommending in this report.
            The SBA paid one lender $643,143to purchase an early problem The lender erroneously
            concluded                                                                              loan.
                        that the borrower had repayment ability since the lender (1)computed cash flow
            with figures that did not agree with the borrower s tax transcripts and (2)presented totals that
            contained  errors to support debt service coverage calculations. After the OIG discussed this
            with the Agency,the SBA requested additional information from the lender and
            the debt service coverage. The Agency s reiteration showed that despite the fact that the
                                                                                                                       re-calculated
             lender s analysis appeared flawed and contained some errors, there was no harm to the
             Agency.
25
     from         1-123,
     OMB Circular Appendix C,Memorandum            M-1 -16.
          documentation issues must present their proposal toAgencies that use a different method for reporting improper payments that result
                                                             OMB for review and approval.
                                                                      14
Agency Comments and Office of Inspector General Response
Agency General Comments and Office of Inspector General Response
On August 17,    2012, weSBAprovided           of this report to SBA management for comment. On
                                       a draftsubmitted
September
          IV. 21, 2012,      management                   a formal response,
Appendix A summary of the management s comments and our response follows.
                                                                              which is included in its entirety in
The SBA agreed with 8 of the 12recommendations in the report and stated it has taken steps to address
many of the recommendations. The Agency partially agreed with one recommendation and disagreed
with the remaining three recommendations. Specifically,SBA management stated that it has (1)
developed and finalized comprehensive checklists for conducting improper payment reviews,(2)
developed a process for monitoring the effectiveness of the improper payment review checklist,(3)
provided and will continue to provide adequate training to the National Guaranty Purchase Center
(NGPC),the Little Rock Servicing Center (LRSC)and the Fresno Servicing Center (FSC),and (4)received
recoveries                       will continue to seek resolution or recapture funds,if deemed necessary,
                 twoloansSBAandmanagement
             forFinally,
for one  loan.                                stated it will analyze the time required to better identify
erroneous payments when conducting improper payment reviews.
SBA management did not concur with three of our recommendations. The SBA stated that it will not
seek  recovery for the twoloans made by Superior Financial Group based on an opinion from SBA s
Office of General Counsel(OGC). For the third recommendation,the SBA disagreed with the OIG s
decision to include Splash and Dash as an improper payment. As a result,it stated that it will not seek
recovery   from the lender based on the Office of Credit Risk Management s review and concurrence with
the Office of Financial Program Operations.
Additionally,SBA s response to the draft report stated that the OIG relied on invalid and inconclusive
statistical results when presenting their findings and ignored the Agency s stewardship over taxpayer
dollars.  SBA management also questioned the OIG s interpretation of a letter written to Congress
regarding the difference between the FY 2008 improper payment rate reported by the SBA and the OIG.
As a result,the OIG revised its final report to address the Agency s concern. A summary of the Agency s
general comments and OIG s response is presented in Table 2 below.




                                                       17
Table 2 Agency Comments and OIG Response
Agency Comments
The Office of Inspector General(OIG)states that the
                                                                OIG Response
                                                                With the assistance of our statistician we reexamined
                        Congressmade
         misinformedpayments
Agencyof improper                 andforthe7(a)
                                            public about its    our statistical results and reaffirmed that our conclusion
level
purchases   and                                guaranty
                 the potential for financial loss by
significantly underestimating its FY 2011improper
          rate.
payment This assertion is incorrect;it is based on
                                                                was
                                                                provided in Appendix    V.
                                                                     statistically valid. The results of this review are
                                                                SBA s statistician made methodological and conceptual
invalid and inconclusive statistical results.                   errors in the calculations which were used by the SBA to
                                                                respond   to our audit report. This caused the SBA to
SBA contends that the OIG s methodology is flawed.
Specifically, utilizing the OIG s methodology,the
                                                                reach a flawedSBAconclusion
                                                                Specifically,       s           about our reported results.
                                                                                       statistician did not account for the
                             6.6
resulting Standard Deviation for improper payments is
$16Billion. That amount is times greater than SBA s
total actual purchases proper and improper in FY
                                                                complex Further,
                                                                sample.   sample design      in their projection of the double
                                                                                      the statistician used an implausible
                                                                assumption that the six OIG-identified deficiencies
2011 of $2.4 Billion.
                                                                transactions.   It is extremely unlikely a  one-in-1.72-
                                                                existed exclusively in the OIG s subsample of 30loans
                                                                and nowhere else       in the Agency s sample of 303
                                                                million chance that the deficiencies would only exist in
                                                                the subsample. As a result,we continue to support our
                                                                conclusionpayment
                                                                             that SBA significantly underestimated its
                                                                improper                rate and provided
                                                                information to the Congress                 inaccurate
                                                                                                  and the public.
The OIG ignores the Agency s stewardship over                   With regard to the Agency s stewardship over taxpayer
taxpayer  dollars.                                              dollars, this audit focused on only one aspect of SBA s
                                                                responsibilities identifying improper payments. As
The Agency is a faithful steward of taxpayer dollars.           stated in the Agency s response,SBA s purchase rate in
The current 7(a)  12-month                     3.3
                             purchase rate of percent
is 37percent lower than FY 2011and 55percent lower
                                                                comparison    to the total outstanding 7(a)loan portfolio
                                                                has recently declined. However,we also noted that the
                                                                dollar amount of purchases has significantly increased
than FY 2010. This speaks to the integrity of the SBA s         since 2007,while      the amount of denials and repairs
data modeling and the Agency s commitment to risk               decreased.
                                                                    .05 1.3
                                                                              Specifically,in 2007,the denial and repair
management and account      of taxpayer dollars. SBA            rate waspercent.             total purchases and in 2011,it
                                                                               percentThisofdecrease
believes its oversight
well-managed           of improper payments is equally
                and reported.                                   was
                                                                and  repairs  supports    our  concernin the rate of denials
                                                                                                        that SBA may not be
                                                                identifying all improper payments.
The SBA has made significant and purposeful strides in
improving its processes to reduce and prevent improper
payments by implementing internal controls,including
establishing a Quality Improvement Program in all of its
                                                                We acknowledge the     on-going      efforts made by the
                                                                Agency to improve the improper payment review
                                                                process. We also acknowledge thatthe SBA has made
centers and training its employees.                             significant and purposeful strides toward improving its
                                                                processes   to reduce and prevent improper payments by
                                                                providing ongoing training to loan center staff and
                                                                implementing internal controls,such as the Quality
                                                                ImprovementProgram.
The FY 2011 improper payment draft report stated that We disagree with the Agency s decision to reverse its
OFPO concurred with five of the six OIG-identified
improper payments;however,after further               concurrence on the two Superior Financial Group
                                                      Although the OGC guidance may deter the Agency from
                                                                                                                      loans.
                                                               18
Recommendation 1
Create  a more
purchases        comprehensive improper payment detection checklist for reviewing 7(a)guaranty
            to address the many requirements that reviewers must be familiar with when conducting
improper
assessing:  payment    reviews. The checklist should be consistent with the SOP and include details for
            eligibility,use of proceeds,debt refinancing,change of ownership,credit analysis,repayment
ability, equity injections,standby debt,early default/ early problem,collateral,IRS tax verification,loan
servicing,and liquidation.
Management Comments
SBA management concurred with this recommendation and has developed and implemented
comprehensive     checklists addressing the various requirements loan specialists must be familiar with
when conducting improper payment reviews.
OIG Response
Management s comments were responsive to the recommendation.
Recommendation 2
Develop a procedure for monitoring the effectiveness of the checklist for detecting improper payments.
Management Comments
SBA management concurred with this recommendation and developed a process for monitoring the
effectiveness   of the checklist for detecting improper payments.
OIG Response
Management s comments were responsive to the recommendation.
Recommendation 3
Provide training to Little Rock improper payment reviewers on the Agency s policies concerning business
plans for Community Express loans,using credit scoring,IRS Form 4506 and determining early default to
ensure   these reviewers are aware of and understand the 7(a)loan requirements that resulted in
undetected improper payments.
Management Comments
SBA management concurred with this recommendation. Over the past few months,the LRSC has held
several  training sessions,including training on SBA Express loan purchases. The LRSC will continue to
hold monthly training sessions with the loan specialists,and will include business plans for Community
Express
reviewers loans,
            are  using credit scoring,IRS Form 4506and determining early default to ensure these
                aware   of and understand the 7(a)loan program requirements that resulted in undetected
improper payments.
                                                   20
OIG Response
Management s comments were responsive to the recommendation.
Recommendation 4
Provide training to Fresno improper payment reviewers on the Agency s policy concerning the use of
credit scoring to ensure these reviewers are aware of and understand the 7(a)loan requirements that
resulted in undetected improper payment.
Management Comments
SBA management concurred with this recommendation and the FSC has held various training sessions
over the past few months. The FSC will continue to hold monthly training sessions with the loan
specialists and will include the use of credit scoring to ensure these reviewers are aware of and
understand the 7(a)loan program requirements that resulted in undetected improper payments.
OIG Response
Management s comments were responsive to the recommendation.
Recommendation 5
Provide training to improper payment reviewers at the National Guaranty Purchase Center on the
Agency s policies concerning assessing repayment ability,validating equity injection,and determining
early default payments to ensure these reviewers are aware of and understand the 7(a)loan
requirements that resulted in undetected improper payments.
Management Comments
SBA management concurred with this recommendation and recognizes the importance training plays in
ensuring  loan specialists possess the knowledge and skills necessary to perform improper payment
reviews. The NGPC offers monthly training sessionstoall loan specialists and provides both general and
individualized feedback based on Quality Improvement Program reviews. The NGPC will continue to
provide training to include assessing repayment ability,validating equity injections,and determining
early default payments to ensure these reviewers are aware of and understand the 7(a)loan
requirements that resulted in undetected improper payments.
OIG Response
Management s comments were responsive to the recommendation.
Recommendation 6
Determine   the appropriate amount of time needed to better identify erroneous payments when
conducting improper payment reviews.
                                                  21
Appendix I: Scope and Methodology
To answer our objective,we obtained the Agency s universe of 28,237 purchases totaling approximately
$2.36 billion made between April 1,2010 and March 31,2011 and tested its completeness. We then
assessed  the Agency s methodology for selecting its sample of 303guaranty purchases from the
universe using OMB guidelines. These guidelines provide specific instructions for estimating and
                                                   26
reporting the rate of improper payments. We consulted a statistician to ensure the validity of the
Agency s sample design,sample size,and measurement methodology.
To determine whether the SBA identified all improper payments,we statistically selected a sample of 30
guaranty purchases
comprised               from the SBA s sample of 303purchases totaling $129.5 million. The sample was
               of 29unique transactions that totaled approximately $8.9 million.27 A listing of the 29
purchases                                               I I.
              is detailed in Appendix Using a standard OIG review methodology that we prepared based
     applicable SBA standard operating procedures,we assessed whether or not the Agency s reviewers
onidentified all improper payments made by the SBA during the guaranty purchase process. Our sampling
methodology is explained in Appendix                           I.
Washington,
Guaranty             D.C.,
To determine the SBA s process for identifying improper payments,we interviewed Agency personnel in
                        CenterCA,
             PurchaseFresno,       and Little Rock,AR Commercial Loan Servicing Centers,and the National
                               in Herndon,                     VA.
Based on our review results and the assistance of a statistician,we developed an estimate of improper
payments     for  the SBA s 7(a)guaranty purchases made in FY 2011. During the course of the audit,we
met with the Agency on several occasions to reconcile improper payments identified by the OIG but not
identified by the           SBA.
Use of Computer Processed Data
To test for completeness of the SBA universe of purchased loans,we compared the data provided by the
Office of the Chief Information Officer (OCIO)to computer-processed data from the Agency s
Mainframe/Partner    Identification and Management System (PIMS)extract. We analyzed the universe of
loans purchased between      April 1,2010and March 31,2011.
To test for the accuracy of the purchased loan attribute in the data provided by the OCIO,we assessed
each       in the universe. The test ensured that each loan contained the purchase attributes of:
     loandate,
purchase         purchaseandprinciple
loans were purchased                           amount,
                              are beinggrossserviced     and loan type codes of 17and 27,which indicates the
                                                     by either the SBA or the lender.
We tested the reliability of our sample of 7(a)guaranty purchases by comparing our sample against data
in the SBA s Loan Accounting System (tosource information found in the loan files of the sample loans
to ensure the information matched).

26
27OMB  CircularAmore-12loans3,once.wascomprised
  The sample of 30
     sampled         than
                            Appendix C
                                                  of 29unique transactions because the statistician used a sample design that allowed loans to be
                                                                              25
Prior Coverage

Guaranty  Purchases.
Report Number,
                      In addition,
the Internet at http://www.gao.gov and
GAO Reports and Testimony
                GAO-08-438T,    January
                                        http://www.sba.gov/office-of-inspector-general .
During the past 5 years,the Government Accountability Office (GAO)issued one report pertaining to the
SBA s compliance with the Improper Payments Elimination and Recovery Act relative to 7(a)Loan
                                  the OIG has issued two reports. The public can access these reports on

                                        31,2008.GAO(2008). Status of Agencies’Efforts to Address
Improper  Payment   and Recovery  Auditing Requirements. Retrieved from:
http://www.gao.gov/products/GAO-08-438T
                9-16,
SBA OIG Reports and Memorandums
Report Number, July 10,2009. SBA OIG (2009). The Small Business Administration s Fiscal Year
2008Improper Payment Rate for the 7(a)Guaranty Loan Program.Retrieved from:
http://www.sba.gov/sites/default/files/oig_reptbydate_july9-16.pdf
              1 2 - 1 0 ,
Report Number March 15,2012. SBA OIG (2012). SBA Generally Meets IPERA Reporting
Guidance but Immediate Attention Is Needed to Prevent and Reduce Improper Payments.Retrieved
from:http://www.sba.gov/office-of-inspector-general/874/129471




                                                  26
Appendix II: Statistical Approach,Sampling Methodology and Projections
Sample Selection
The OCIO provided data on the universe of 7(a)loans purchased between April 1,2010and
March 31, 2011. The universe consisted of 28,237loans or approximately $2.36 billion in loans
purchased during this review period. From this universe,the SBA s statistician generated a statistically
random                 7(a)guaranty purchases that numbered 303and totaled $129.5 million. The 303
purchasedsample
              loansofwere  then reviewed by the SBA for the detection of improper payments.
The OIG consulted a statistician to produce a sample of 7(a)guaranty loan purchases from the 303
reviewed     by the Agency. The OIG s sample      numbered  30, but was comprised of 29unique transactions
that totaled approximately $8.9 million. The methodology used by the OIG s statistician was a
                                             28
stratified random sample with selection probability proportional to size with the purchase amount as
the unit of measure. The OIG s statistician tested the sampling methodology used by the SBA and the
OIG to ensure it would produce a statistically valid estimate of the rate of improper payments.
Projection of Sample Results          (Two-Tier
                                              Approach)
Upon reviewing the sampling plan produced by the Agency,the OIG s statistician concluded that the
sampling methodology was consistent with industry practices. The serious shortcoming of the design
            5 of the 11strata had only 1 item included in the sample. As a result,this rendered the
was thatincapable
samples                of producing confidence intervals as the standard errors for these strata were
undefined without resorting to extra assumptions. Of the five potentially affected strata,two of the
single sampled item strata included exceptions.
     validating the projections produced by the Agency,the statistician was able to replicate the projected
Inresults of the Agency while estimating the impact of including the exceptions detected by OIG when
testing the subsample of the Agency s sample.
The statistician used a
purchases     made
sample to be expanded
                        two-tiertwo-tier sub-sample.
                    in FY 2011. A
                                    approach to project the rate of improper payments for 7(a)guaranty
                                             approach allows for the projection of audit results from a full
                             based on the results of a               Table 2,below,combines the              and        first-tier
the second-tiseercond-tier.
illustrate the
                   approaches.                       first-tier
                                  Step one in the Table illustrates the         and steps two through five
When projecting the sample results that the Agency agreed with to the population,the OIG improper
payment amountresults.is approximately 11times more than the improper payment amount produced using
the full-sample              When projecting the subsample results including additional improper payments
identified by the OIG,but not agreed to by the Agency,to the population,the OIG improper payment
           is approximately 23times more than the improper payment amount produced using the full
amountresults.
sample             This is illustrated in Table 2 below.


     sample of 30loans was comprised of 29unique transactions because the statistician used a sample design that allowed loans to be
28 The
  sampled more than  once.
                                                                  27
Appendix II: Statistical Approach,Sampling Methodology and Projections
Table 3 Adjusted Estimated Improper Payment Rate
                                                                   Population Estimated with Population Estimated with
Tier Step Description                                              All 7 Improper Payments 6 Improper Payments
One 1 Calculate SBA Improper Payment Rate3029
         2        Calculate OIG Improper Payment Rate
                                                                   0.53%
                                                                   12.05%                    0.53%
                                                                                             5.92%
         3        Ratio Estimate of Step 2 / Step 1                22.87                     11.24
                                                                                             9.86%
Two 4 Improper    Result of Step
                            Payment    Rate of 0.877%31 s Original 20.05%
                                 3 Multiplied by Agency
                  Estimated Improper Payment Dollar Amount $472,398,689                      $232,238,017
Source 2 5Summit Consulting  Statistician




29
30
31
     This Improper Payment Rate is based on the number of improper payments OIG detected when reviewing its sample of 30
     0.877 percent                                                                                                          loans. OIG.
     This Improper Payment Rate is based on the number of improper payments SBA detected in the sample of 30loans reviewed by the
                   is the initial improper payment rate calculated by the SBA after completing the FY 2011improper payment review of 7(a)
      guaranty purchases.
      review and providedThis    would have been the rate reported in the annual Agency Financial Repot,had the OIG not conducted its own
                            the Agency with the results.
                                                                       28
Appendix IV: Management Comments
Date: September 21,2012
To: John         K.
              Needham
      Assistant Inspector General for Auditing
From: Jeanne Hulit
      Associate Administrator,Office of Capital Access
                 A.
            John Miller
            Director,
                   Office of Financial Program Operations
Subject: Response to Draft Report on The Small Business Administration s Improper Payment
         Rate for 7(a)Guaranty Purchases Remains Significantly Underestimated,Project
            11008
                                                                                                             No.
Executive  Summary
The Office of Inspector General (OIG)states that the Agency misinformed Congress and the
public about its level of improper payments made for 7(a)guaranty purchases and the potential
for  financial loss by significantly underestimating its FY2011 improper payment This
assertion                                                                                    rate.
           is incorrect;it is based on invalid and inconclusive statistical results, and it ignores the
Agency s stewardship over taxpayer dollars. The SBA s improper payment rate of 1.73 percent
subsequent                          rate.
is a statistically valid estimated That said,based upon SBA s work with the OIG
              to the OIG s initial draft report,the Agency believes that the improper payment rate
could lie between the Agency s improper payment33 rate of 1.73 percent and the OIG s reported
rate of 9.86 percent for all 7(a)guaranteed loans.
As such,SBA would like to communicate the following points:
         OIG s report is based on a flawed statistical approach.
         OIG s report ignores the Agency s stewardship of taxpayer dollars.
         The Agency has addressed the OIG s recommendations related to improper payments and
         has taken appropriate action.
         Going forward,the Agency will continue to reduce and prevent improper payments.



33 OIG      12-10,
      Report SBA Generally Meets IPERA Reporting Guidance but Immediate Attention is Needed to Prevent and
Reduce Improper Payments,March 15,2012.
                                                  31
Appendix IV: Management Comments
 8.00%
 7.00%
 6.00%
 5.00%
 4.00%
 3.00%
 2.00%
 1.00%
 0.00%
                                     7(a)Rates (FY05 Present)-                         Delinquency Rate
                                                                                       12Month Purchase Rate
                                                                                       12Month   Charge-Off
                                                                                                          Rate


The  Agency Is a Faithful Steward of Taxpayer Dollars
Agency data shows that the 7(a)12Month Purchase Rate for FY2011 was percent.34                   4.4
                 rose in 2009(6.6percent)and 2010(7.3percent)due,in part,to the recession.
Purchase
percent
           rates
         lower                                            3.3
The current 7(a)12Month Purchase Rate of percent is 37 percent lower than FY2011 and 55
                than FY2010. This same trend is true for both the 12Month                and      Charge-Off
Delinquency Rates which peaked in late 2010 and since declined.
SBA strives to ensure proper payments on guaranty purchases consistent with SBA regulations
and policies. The FY2011 draft OIG report references the OIG s FY2008 improper payment
audit and its recommendation to mitigate the risk of future improper payments. The Office of
Financial Program Operations (OFPO),which oversees all of SBA s guaranty purchase centers,
addressed the FY2008 OIG recommendations. OFPO has made significant and purposeful
strides in improving its processes to reduce and prevent improper payments by implementing
internal controls.  Among    the controls instituted,OFPO established Quality Improvement
            (QIP)in all of its centers. The QIP Team reviews actions posing the highest level of
Programspayment
improper             risk to the Agency and uses that data to analyze and improve center processes.
SBA complies by performing the annual improper payment audit and,in addition,conducts
random   guaranty purchase reviews prior to guaranty payment on a daily basis through the                             QIP.
OFPO recognizes the importance training plays in ensuring SBA employees possess the
knowledge and skills necessary to perform robust improper payment reviews. The National
Guaranty Purchase Center (NGPC),Fresno Commercial Loan Servicing Center (FSC),and Little
Rock Commercial Loan Servicing Center (LRSC),collectively known as the Centers for the
purposesandof this
general            document,offer monthly training sessions to their employees and provide both
              individualized feedback based on the reviews conducted by the Additionally,          QIP.
OFPO updates policies and procedures to align with the Agency s goal of reducing and
preventing improper payments.
34 12Month Purchase Rate Sum of gross dollars purchased over the previous 12months,divided by the sum of total gross
outstanding unpurchased dollars at the end of the period plus the sum of gross dollars purchased over the previous 12months.
                                                              32
Appendix IV: Management Comments
Wiley,  but no chapter or page references. Upon review of the text,SBA s statistician determined
that the approach the OIG took was likely the double sampling approach described in chapter 14
of Thompson.To date,the OIG has yet to provide SBA with a calculation of the variance or
confidence
an estimateinterval  around their estimate.On page 141of Thompson,the formulas to determine
             of the level of improperly paid dollars and the variance of that estimate are
described.
ThompsonSBA     s statistician calculated a variance and confidence interval according to
           using loan-level results from the OIG s review of the subsample of 30 loans from
Appendix III of their draft report. The column in Appendix III titled All OIG Improper
Payments Plus One Identified by SBA & OIG is treated as the variable of interest     (y-values)   and
variable of the subsample   (x-values).
the column titled Improper Payments Not Agreed to by SBA is used to determine the auxiliary
 It is important to note that the OIG indicated that when drawing the subsample from the SBA s
sample                  i . e . ,
         of 303 loans that they followed the sampling technique that SBA describes in its FY2011
sampling methodology, stratified probability proportional to size (PPS)sampling with
replacement.
OIG s subsample
               Therefore,SBAaccording
                  (y-values)     s statistician calculated the variance of the improper payments in
                                           to the approach in SBA s FY2011 sampling methodology
document.
This calculation is provided by SBA to the OIG via Appendix I,which includes the data and
calculations  for the ratio estimator,variance,and confidence intervals for an estimate of
improperly paid dollars using the Double Sampling approach described in chapter 14of
Thompson.    Table 1 below shows summary results of the Excel calculations. Tau x represents the
population estimate of improperly paid dollars based on the auxiliary variable, SBA s
determination of improper payments in the sample of 303loans.Tau r represents the ratio
estimator of the population total of the variable of interest,or the SBA s estimate of OIG s
determination of improper payments based on the Double Sampling approach.SBA s statistician
estimates Tau r to be $248 Million.
Table 1: Results of OIG Double Sampling Approach,Estimated by SBA s Statistician
                      Variable                                 Value
       tau x                                                           $151,578,749
       tau r                                                           $248,411,045
       Variance
       Standard Deviation
                                                    $259,920,039,143,587,000,000
                                                                    $16,122,035,825
       90Percent CI Lower Bound
       90Percent CI Upper Bound
                                                                   -$26,272,337,887
                                                                    $26,769,159,977


                                                 34
         -
Appendix IV: Management Comments
As Table 1 shows,the variance around the ratio estimator yields 90 percent confidence interval
that is not materially differentiated from positive or negative infinity,rendering OIG s estimator
devoid of reasonable operational meaning. More specifically,OIG s sample yields an Expected
Improper Payment of $248 Million,and a Standard Deviation of $16Billion. These statistics
indicate that a 90Percent confidence interval yields a Lower Bound Estimate of minus $26
Billion, and an Upper Bound Estimate of positive $27Billion. The actual annual purchases for
FY2011 proper and improper was $2.4 Billion. The OIG s Standard Deviation for improper
payments                               6.6
            is $16 Billion. That is times greater than all of SBA s actual FY2011 purchases.
This difference evidences the inherent flaw in the OIG s methodology.
Given that all the 7(a)purchases (properand improper)for FY2011 were $2.4 Billion,this range
indicates that there is a 90 percent chance that the actual 7(a)improper payments for FY2011
were anywhere from zero percent to 100percent of total purchases.In essence,these statistics
state that there is a 90 percent chance that all of the SBA 7(a)purchases were either proper or
improper.
By contrast,the SBA findings yield an Estimated Improper Payment of $41 Million,or
percent of all the 7(a)purchases for FY2011,and a Standard Deviation of $14 Million. A similar           1.7
90 percent confidence interval yields a Lower Bound Estimate of $18 Million, or percent of
all the FY2011 7(a)purchases,and an Upper Bound Estimate of $64 Million,or percent of
                                                                                                0.82.7
all the FY2011 7(a)purchases. Therefore,SBA does not believe that the Double Sampling
approach used by the OIG provides improved estimates of the population total of improper
payments.
Conclusion
The SBA seeks to ensure accurate reporting to Congress and the public on the risks and returns
of the Agency s loan programs. SBA is committed to good stewardship of taxpayer dollars. Due
to the deterioration in the economy,recent 7(a)cohorts have required additional subsidies. More
specifically, the projected macroeconomic performance projected by OMB and the SBA s
assumption based on actual historicalsoloan
the Agency s projected default rate     as  performance
                                           to require     data in similar conditions have increased
                                                      subsidy appropriations to cover projected
losses in the 7(a)loan programs. Using this model for the 7(a)Guaranty program,the Agency
                                 36
estimated a Cumulative Purchase Rate of 13.5 percent, Cumulative Recovery       Rate of 25 percent,
and Cumulative Loss Rate of 10.1 percent for the 2002-2011 cohorts. However,in actuality,
                                         7.18.1
                                                                        37
the Cumulative Purchase Rate was percent; the Cumulative Recovery Rate was 11.9 percent;
and the Cumulative Loss Rate was percent. This speaks to the integrity of the SBA s data
36   The Office of Financial Analysis and Modeling (OFAM)executes econometric and other models for SBA s loan
programs    that project the subsidy required to operate the SBA s loan programs. These models incorporate cash flow
assumptions    based on historical loan performance;cohort composition assumptions in terms of characteristics such
as37 The  size,geographic
     loanCumulative        region,Rateindustry,
                      Purchase                  etc.;and projected macroeconomic performance.
                                        is different than the Annual Purchase Rate.Broadly speaking the Cumulative
Purchase Rate for a specific loan guarantee cohorts approximates the summation of the Annual Purchase Rates for
that cohort.
                                                        35
Appendix IV: Management Comments
modeling and the Agency s commitment to risk management and accountability of taxpayer
dollars. SBA believes its oversight of improper payments is equally well-managed    and reported.
OFPO Management s response to the recommendations in the draft report is noted as follows:
1.
guaranty
when
         Create a moreto address
           purchase      comprehensive  improper payment detection checklist for reviewing 7(a)
                                 the many requirements that reviewers must be familiar with
       conducting improper payment reviews. The checklist should be consistent with the SOP
and include details for assessing: eligibility, use of proceeds,debt refinancing,change of
ownership,   credit analysis,repayment ability, equity injections,standby debt,early
default/early problem,collateral,IRS tax verification,loan servicing,and liquidation.
OFPO concurs with this recommendation and has taken the following actions:
The Centers have developed comprehensive checklists addressing the various requirements loan
specialists must be familiar with when conducting improper payment reviews. Versions of these
checklists have been shared with the OIG,with feedback incorporated into the documents.
These documents encompass the pertinent purchase review areas and are designed to ensure
lender  compliance with all 7(a)loan program requirements. The centers have finalized this
revised document and have since implemented its use when conducting reviews.
2improper
  . payments.
         Develop a procedure for monitoring the effectiveness of the checklist for detecting
OFPO concurs with this recommendation and has taken the following actions:
OFPO has developed a process for monitoring the effectiveness of the checklist for detecting
                                                      OIG.
improper payments and will share the process with the OFPO is open to the OIG s
suggestions for improvement on the process.
3.      Provide training to Little Rock improper payment reviews on the Agency s policies
concerning   business plans for Community Express loans,using credit scoring,IRS Form
4506 and determining early default to ensure these reviewers are aware of and understand the
7(a)loan program requirements that resulted in undetected improper payments.
OFPO concurs with this recommendation. Over the past few months,LRSC has held several
training sessions discussing general servicing guidance,portfolio servicing actions,504
Department   loan servicing, and SBA Express loan purchases. LRSC will continue to hold
monthly training sessions with the loan specialists,and will include business plans for
Community Express loans,using credit scoring,IRS Form 4506 and determining early default to
ensure these reviewers are aware of and understand the 7(a)loan program requirements that
resulted in undetected improper payments.
                                               36
Appendix IV: Management Comments
4concerning
  . Provide
the 7(a)
                     to Fresno improper payment reviewers on Agency s
               training
                         scoring to ensure
               use requirements
            the of credit
        loan program
                                                                       the
                                           these reviewers are aware and understand
                                      resulted undetected improper payments.
                                       that           in
                                                                             of
                                                                                      policy

OFPO concurs with this recommendation and has taken the following actions:
FSC and OFPO appreciate the value of the continuing education of their employees. Over the
guidance,FSC
training. workout                                                E-Tran
past few months,FSC has held various training sessions including,general loan servicing
                    training,SBA Express liquidation training, training,and ARC
               will continue to hold monthly training sessions with the loan specialists and will
include the use of credit scoring to ensure these reviewers are aware of and understand the 7(a)
loan program requirements that resulted in undetected improper payments.
5.      Provide training to improper payment reviewers at the National Guaranty Purchase
Center on the
injections,  and
                 Agency s policies concerning assessing repayment ability,validating equity
                                  early default payments to ensure these reviewers are aware of and
understand thedetermining
                  7(a)loan requirements that resulted in undetected improper payments.
OFPO concurs with this recommendation and plans the following actions:
NGPC and OFPO recognize the importance training plays in ensuring loan specialists possess
the knowledge and skills necessary to perform improper payment reviews. NGPC offers
monthly training sessions to all loan specialists and provides both general and individualized
feedback based on QIP reviews. NGPC will continue to provide training to include assessing
repayment    ability, validating equity injections,and determining early default payments to ensure
these reviewers are aware of and understand the 7(a)loan requirements that resulted in
undetected improper payments.
6.      Determine the appropriate amount of time needed to better identify erroneous
payments when conducting improper payment reviews.
OFPO concurs with this recommendation and plans to take the following actions:
OFPO and its Centers are committed to improving the Agency s improper payment review
process andconsistent          specialists have the appropriate resources to efficiently conduct such
              ensuringwithloanAgency
reviews,                              policies, and detect improper payments while maintaining high
production standards. OFPO will conduct an analysis to determine the time needed to better
identify erroneous payments when conducting improper payment reviews by March 31,2013
which is prior to the FY2013 IPERA review.


                                                 37
Appendix V:OIG Statistician Response to SBA Comments
Summit Consulting LLC                                                    October 18,2012
To:
OIG
   Jeff Brindle,John Needham,Betty Norwood,Christopher Scott,Terry Settle,and Karmel Smith,                        SBA-
From:Albert Lee and Corey West,Summit Consulting,LLC (Summit)
Date:October 18,2012
Subject:SBA 7(a)Purchase Report Response
Memo Objectives
    12.. memo.
This memo serves to:
       Explain and correct the methodological and conceptual errors in the Agency s September 21,
       2012
       Illustrate the implausibility of the Agency s assumption that the six OIG-identified discrepancies
       existed exclusively in the subsample,and nowhere else in the sample of 303transactions.
Background
For 1. AssessPurchase project, implemented
     the 7(a)             IPIA    OIG tasked
                the sampling methodology
                                                    Summit Consulting to:
                                                             for calculating    improper payment rate and
                                                                                      the
     23.. Determineestimatescalculation
          improper
         Replicate the
         point
                       payment
                           dollar
                                 of the
                                         amount for
                                             improper
                              produced Agency.
                                  by the
                                                       s
                                            SBA 7(a)FY2011
                                                       payment rate  portfolio.
                                                                     and improper  payment
                             appropriate improper payment rate and improper payment amount
                                                                                                    amount
                                                                                                         dollar
                       based on a sub-sample transactions from sample selected
                        the                                                                          dollar
          estimates
          Agency.  38
                                                  of 30                        the            of 303          by the


    12..conclusion
At the
              Agency
         stratified
                                     phase project,Summit Consulting concluded following:
                    of the initial of the
                                        a
         The had adopted sampling methodology                  consistent
                      random sample selection Agencyproportional
                                   with
          Summit Consulting successfully
                                                probability
                                        replicated the      point
                                                                  with best
                                                                   s estimates
                                                                              the
                                                                              to size
                                                                            (PPS)with
                                                                                     practices, namely,a
                                                                                                 replacement.
                                                                                      based on sample
                                                                                    the
         design.
  The documents reviewed to perform these tasks were:SBA_IPIA_Methodology_FY2011_20110707.docx and
Summary_Estimated_Improper_Payments_FY2011_20111107.xlxs
38


                                                              40
Appendix V:OIG Statistician Response to SBA Comments
        3. BasedAgency.
                     on result sub-sample transactions,Summit Consulting determined
                            the
                           This
                                           of the    of 30
           Agency s improper payment rate to approximately and not 1.7% calculated
                                                  be
                                                              of the
                                                                      20%
                          translated to an underestimation improper payment amount
                                                                                   the
                                                                                        dollar
                                                                                                       the
                                                                                                     by the
                                                                                                     figure of
           approximately million,whereas                       implementing
                                                  the findings of                             approach
                                                                                 the double sampling
        4. contained         $41
           produced an improper payment amount approximately million.
           Summit Consulting further noted
                                              dollar
                                               that the
                        only one sampled transaction.
                                                               of
                                                      Agency s sample
                                                         Without additional
                                                                                $472
                                                                                       strata
                                                                                             39
                                                                           design included five that
                                                                       assumptions,
           undefined for these eleven strata. As our review September 2012, Agency
                                  five of                   of            in
                                                                                   standard errors were
                                                                                               the had
               not provided any confidence intervals with its point estimates.
SBA s September 21,2012Memo
The Agency issued a memo dated September 21,2012 responding to the OIG s analysis and conclusions.
The Agency stated that               SBA-OIG
                                s conclusion is based on invalid and inconclusive statistical results
                                                                     1.73
and its estimated improper payment rate of percent is a statistically valid estimated 40 The                 rate.   ,
Agency reached this conclusion after an attempt to replicate the OIG s calculation based on the
Thompson (1992)formula on double sampling. According to its calculation,a point estimate of $248.4
Million was provided. This compares to the Agency s finding of $41 Million,or percent of all the
7(a)purchases for FY2011,and a standard deviation of $14 Million. Consequently, SBA does not
                                                                                                    1.7
believe that41the Double Sampling approach&improved estimates of the population total of improper
payments.
Summary of Findings
Upon reviewing the Agency s September 21,2012memo,Summit identified methodological and
        12..
conceptual   errors,  namely:
        Methodologically,the Agency failed to account for the complex sample design a stratified
        random      samplethedesign
        Conceptually,               with PPS)in their projection of the double sample.
                               Agency erroneously extrapolated one unresolved disagreement with the OIG,
                                                                                                          (e.g.,
                    the six discrepancies identified by the OIG.
         3.
        anditsnotextrapolation,
        Indiscrepancies
        transactions.
                                 the Agency made an unsubstantiated assumption that the six OIG-identified
                          existed in the subsample exclusively,and nowhere else in the sample of 303
                          This assumption led to an underestimation of the Agency s improper payment
        rate  and amount.
After correcting for the aforementioned errors,the OIG concluded the Agency s estimated improper
payment dollar amount to be approximately $472million.

39
40
41
     SSBASBABA_Memo,
               1 0 8_toFPageinJohnal_5,2Needham,
               Memo                     0third1201paragraph.
                                                  31_v2date.docSeptember
                                                                x 21,2012.Page1,ExecutiveSummary.
                                                                              41
Appendix V:OIG Statistician Response to SBA Comments
Methodologically,the Agency failed to account for the stratified random sample design in their
projection of the double sample
The full sample and subsample were selected using a stratified random PPS with replacement design.
Consequently,the Agency s extrapolation needed to take this complex sample design into
consideration.  Instead,the Excel spreadsheet provided by the Agency applied formulasthat were
applicable for a simple random sample design for the double sample. As a result,the Agency s
extrapolations were inconsistent with the complex sample design.
Conceptually,the Agency erroneously extrapolated one unresolved disagreement with OIG,and not
the six discrepancies identified by the              OIG.
In the present context,double sampling seeks to determine whether and the extent to which
discrepancies exist between the Agency s sample evaluation and that of the To achieve this,the
OIG subsampled 30transactions from the Agency s sample of 303transactions. The OIG performed its
                                                                                                   OIG.
independent evaluation to these 30transactions and compared its finding with those of the Agency,and
noted the discrepancies,if           any.
These discrepancies are important because if they exist in the subsample,it is likely that other
discrepancies also exist in the Agency s sample beyond the subsample of Double sampling allows
an extrapolation of the subsample discrepancies to the entire Agency sample,which could further
                                                                                                  30.
extrapolate to the entire population from which the Agency s sample was selected. Therefore,the
proper understanding of what constitutes discrepancies is necessary to double sampling. The relevant
discrepancies are the differences between the OIG s findings and the Agency s initial findings in the
subsample.
Below is a table tabulating the 29distinct subsampled transactions,comparing the OIG and Agency s
audit findings. Among the 29distinct subsampled transactions,six distinct discrepancies were found.
                     42
The total amount of these six distinct discrepancies is about $1,763,205. For most of the discrepancies,
the Agency failed to identify them as improper payments whereas the OIG identified them as                such.


42   Because we subsample with replacement,one transaction was selected twice in the subsample.
                                                                    42
